uaau. c~\j- i u/ t

l/woui

i ici ii. uu i i /

ihozzjz?

raye: i

uare rnea: up/^u/^u^i

tntry iu: 04^3193

United States Court of Appeals
For the First Circuit
Nos.

20-1701
20-1877
UNITED STATES,
Appellee,
v.

ADAM PAUL STREGE,
Defendant - Appellant.

Before
Howard, Chief Judge.
Thompson and Barron, Circuit Judges.
JUDGMENT
Entered: March 23, 2021
In these consolidated criminal appeals, defendant-appellant Adam Strege seeks to
challenge the district court's ruling that he was incompetent to stand trial and the resulting dismissal
of all charges against him. With one of the operative notices of appeal, Strege also sought review
of several interlocutory rulings leading up to the judgment of dismissal. This court entered an order
on November 4, 2020, flagging mootness concerns and giving all interested parties an opportunity
to respond. The Federal Public Defender, who represented appellant below and who, per the
November 4 order, represents appellant for purposes of both of these appeals, responded by
seeking voluntary dismissal of the appeals on mootness and/or jurisdictional grounds. Appellant
apparently opposes the dismissal of the appeals and has expressed a wish to appeal the
determination that he was incompetent to stand trial and the dismissal of all charges against him.
However, despite the invitation to do so, appellant did not make a filing meaningfully addressing
the court's mootness concerns.
An appeal is moot when this court "cannot give any effectual relief to the potentially
prevailing party." Littlefield v. Mashpee Wampanoag Indian Tribe. 951 F.3d 30, 35 n.3 (1st Cir.
2020) (internal quotations omitted). The FPD makes a compelling case for a finding of mootness,
and, again, appellant has failed to address the matter of mootness at all. All charges against

oase: z.\j-lor1

uocumeni: uui mi4j^yy

page: 2

uate Hied: 05/20/2021

Entry ID: 6423193

appellant have been dismissed, and the government did not appeal that dismissal. This court
cannot, under the circumstances, compel the government to alter its position as to the charges. See
generally United States v. Armstrong, 517 U.S. 456, 464-65 (1996) (discussing fact that, for a
variety of reasons, charging decisions are the domain of the executive branch, not the judiciary).
Appellant has been released from custody, apparently with no further relevant proceedings
pending, and, as he has eschewed the opportunity to address the flagged mootness concerns pro
se, appellant has not identified any cognizable collateral consequences or obligations flowing from
the challenged competency finding or from the dismissal of charges. Accordingly, consolidated
appeal Nos. 20-1701 and 20-1877 are dismissed as moot. Appellant's request for new appointed
counsel is denied, and any remaining pending motions are denied as moot.
By the Court:
Maria R. Hamilton, Clerk
cc:

Mariana E. Bauza Almonte
Vanessa Bonano-Rodriguez
Victor J. Gonzalez-Bothwell
Eric A. Vos
Franco L. Perez-Redondo
Adam Paul Strege

Case 3:19-mj-01000-SCC Document 115 Filed 08/14/20 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
UNITED STATES OF AMERICA
CASE NO. 3:19-MJ-1000 (SCC)
v.
ADAM STREGE,

USM# 52566-069

JUDGMENT OF DISMISSAL
i -iv-T

Defendant

ADAM STREGE

has been charged with the offense(s) of:

18:844(e) Maliciously conveying false information concerning bomb threat in interstate commerce.

It is hereby ORDERED and ADJUDGED that the case against this defendant be
DISMISSED for the reason set forth below:
[/j

The Court has aranted the motion of the government for dismissal
with prejudice,
, pursuant to Rule 48(a) of the Federal Rules of
Criminal Procedure,

|

|

The Court has dismissed the charges without prejudice,
for
unnecessary delay, pursuant to Rule 48(b) of the Federal Rules of
Criminal Procedure.

|

|

The Court has dismissed the charges without prejudice, as defendant
remains fugitive.

|

|

The Court has dismissed the charges due to defendant’s death.

IT IS SO ORDERED.
In San Juan, Puerto Rico, on August 14, 2020.
S/Silvia Carreno-Coll
United States District Judge

DPR Forms. Rev. Feb. 2016

Case 3:19-mj-01000-SCC Document 3 Filed 05/16/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
UNITED STATES OF AMERICA, *
Plaintiff,
*
vs.

*

CRIMINAL NO. 19-1000(SCC)

ADAM STREGE,
Defendant.
MOTION REQUESTING PSYCHIATRIC EVALUATION,
REPORT AND TREATMENT
TO THE HONORABLE SYLVIA CARRENO COLL
UNITED STATES DISTRICT COURT MAGISTRATE JUDGE
FOR THE DISTRICT OF PUERTO RICO
COMES NOW, defendant Adam Strege, duly represented by the Federal Public Defender
for this District and respectfully requests that he be submitted to a psychiatric evaluation pursuant
to 18U.S.C. §4241.
Defendant is incarcerated based on a violation(s) of 18 U.S.C. 844(e).
Counsel, after interviewing ADPD Jesus Hernandez, who met and interviewed defendant,'"'
is unsure that defendant is competent at present to stand trial. '
It is further requested that defendant be referred to a mental health evaluation to determine
competency to stand trial.
That if defendant is to be examined in government facilities, he should be transported
forthwith, to start being evaluated and treated. Experience dictates that BOP or U.S. Marshall
Service sometimes takes 2 month to move defendant to the proper facility, which results in
unnecessary jail time for the defendant.
That the institution that performs the evaluation provide undersigned counsel with progress
reports every 30 days as to the status of the evaluation and/or defendant.

CM/ECF LIVE - U.S. District Court for the District of Puerto R... Page 2 of 2

The following transaction was entered on 5/21/2019 at 10:57 AM AST and
filed on 5/21/2019
Case Name:
USA v. Strege
Case Number:
3:19-mj-01000-SCC
Filer:
Document Number: 9(No document attached)
Docket Text:
ORDER granting [3] Motion Requesting Order as to Adam Strege
(1). The defendant shall be evaluated pursuant to 18 USC Section
4241 to determine if he is competent to stand trial. Signed by US
Magistrate Judge Silvia Carreno-Coll on 5/21/2019. (mcv)

3:19-mj~01000-SCC-l Notice has been electronically mailed to:
Eric A. Vos eric_vos@fd.org, carlos_torres@fd.org, effain_aldea@fd.org,
elizabeth_molina@fd.org
Victor J. Gonzalez-Bothwell
Gladys_Gonzalez@fd.org

victor_gonzalez@fd.org,

Vanessa D. Bonano-Rodriguez vanessa.d.bonano@usdoj.gov,
CaseView.ECF@usdoj.gov, arlene.rosado@usdoj.gov,
vanessadanettebonanno@gmail.com
Alexander L. Alum alexander.l.alum@usdoj.gov,
CaseViewrEGF-@usd0jTg0v—d-i-anaTeTdiaz@usdojTgov
3:19-mj-01000-SCC-l Notice has been delivered by other means to: “

httDs://ecf.Drd.circl.dcn/cei-bin/DisDlavReceipt.pl?51895950452... 6/26/2019

»Sensitive"
REQUEST FOR ADMINISTRATIVE REMEDY
Gant
Wait
6
Month
to
1
Year
For Administrative Remedies Exaution
Federal Bureau of Prisons
„ .
„
et
Zero Responce need to Hire Lawyer
>42.14(b) Email Request to Prison Staff
U.S. DEPARTMENT OF JUSTICE

Type or use ball-point pen. If attachments are needed, submit four copies. Additional instructions on reverse.

52566-069

Sirege Adam P

From:

?t

M,

INSTITUTION
UNIT
REG. NO.
LAST NAME, FIRST, MIDDLE INITIAL_____________________________
_____________________________________________

Part A- INMATE REQUEST . I have 3 Separate online Bank acounts that I cant acsses
The Money becuse,, I have no friends or Family to Help Me. Gan the MDC Jaill
Staff Please let me USE a MDC Computer with Internet to do online Banking
Direct Deposit to the MDC Commicery and toacsses,my Money to Hire a Lawyer
I give MDC Jaill Staff Permison to Contact Layers, fore me and tell them my
Available Funds. There are no Phone Books and No List, of Lawyers in MDC Jaill
can Please Give me a List of Puerto Rico Criminal-Defence Attorneys to Hire.
My Verry First Day in Federal Jaill Ever a Public.Defender i never met before
Be filed a 4241(d) Motion insanity Guilty Plea then 98% Refuse all Help so 80%
of My Problem is the Prison Employe Public Defender wont withdraw from my
Case so the Psychological Exsam please find me Competent to Represnt myself
in Court Pro Se. Page 8 Inmate Handbook says BOB Administers a systematic
Payment Program for Court Fees and The Unit Team shall assist the inmate in
establishing an account at a Local Bank. Law 28 CFR 543.10 The Warden Shall
establish an inmate law Library and procedures for access to Legal reference
materials and Legal Counsel. 543.12(a) The Warden Shall allow an Inmate to
contact..and retain attorneys. With the Written Consent of the
t
may advise an attorney of the Inmates available funds.542.14(b) My Very First
Complaignts to BOP Staff never Tell inmates about BP-229 Forms
19 / It 1 DlOH

_J-------------- -----------------------------SIGNATURE OF REQUESTER

DATE

Part B- RESPONSE

WARDEN OR REGIONAL DIRECTOR
DATE
If dissatisfied with this response, you may appeal to the Regional Director. Your appeal must be received in the Regional Office within 20 calendar days ofthe date of this response.

4

THIRD COPY: RETURN TO INMATE

CASE NUMBER: ----------------------------------------CASE NUMBER:

Part C- RECEIPT
Return to:

LAST NAME, FIRST, MIDDLE INITIAL

REG. NO.

UNIT

INSTITUTION

SUBJECT:
RECIPIENT'S SIGNATURE (STAFF MEMBER)

DATE
I ISP I VN

PRINTED ON RECTCtfO PAPER

BP-229(13)
APRIL 1982

t!Sensi tive"
REQUEST FOR ADMINISTRATIVE REMEDY
Qant
Wait
6
'Month
to
1
Year
For Administrative Remedies Exaution
^
Federal Bureau of Prisons
342.14(b) Email Request to Prison Staff et Zero Responce need to Hire Lawyer
U.S. DEPARTMENT OF JUSTICE

Type or use bail-point pen. If attachments are needed, submit four copies. Additional instructions on reverse.

Strege Adam P

From:

52566-069

___

LAST NAME, FIRST, MIDDLE INITIAI_________

S^fl /I4 icteri*
INSTITUTION

UNIT

REG. NO.

Part A- INMATE REQUEST1 have 3 Seperate online Bank acounts that I cant acsses
The Money be.cuse.,1 have no friends or Family to Help Me.. Can the MDC Jaill
Staff Please let me USE a MDC Computer with Internet to do online Banking
Direct Deposit to the MDC Commicery and to acsses,.my Money, to Hire a Lawyer
I give MDC Jaill Staff Permison to Contact Layers, fore me and tell them my _
Available Funds. There are no Phone Books and No List, of Lawyers in MDC Jaill
can Please Give me a List of. Puerto Rico Criminal Defence Attorneys to Hire.
My Verry First Day in Federal Jaill Ever a Public Defender i never met before
ono/
Hg filed a 4241(d) Motion insanity Guilty Plea then 98% Refuse all Help so 80%
of My Problem is the Prison Employe Public Defender wont withdraw from my
Case so the Psychological Exsam please find me Competent to Represnt myself
in Court Pro Se. Page 8 Inmate Handbook says BOB Administers a systematic
Payment Program for Court Fees and The Unit Team shall assist the inmate in
establishing an account at a Local Bank. Law 28 CFR 543.10 The Warden Shall
establish an inmate law Library and procedures for access to Legal reference
materials and Legal Counsel. 543.12(a) The Warden Shall allow an Inmate to
contact-and retain attorneys. With the Written Consent of the inmate staff
may advise an attorney,. of the Inmates available funds.542.14(b) My Very first
Complaignts to BOP Staff never Tell inmates about BP-229 Forms
19/11/2 OH

....

(LcU

.

DATE

Jtez:_____ ;__________________
SIGNATURE OF REQUESTER

Part B- RESPONSE

WARDEN OR REGIONAL DIRECTOR
DATE
If dissatisfied with this response, you may appeal to the Regional Director. Your appeal must be received in the Regional Office within 20 calendar days of the date of this response.

c

THIRD COPY: RETURN TO INMATE

CASE NUMBER: ----------------------------------------CASE NUMBER:

Part C- RECEIPT
Return to:

LAST NAME, FIRST, MIDDLE INITIAL

REG. NO.

UNIT

INSTITUTION

SUBJECT:
RECIPIENT'S SIGNATURE (STAFF MEMBER)

DATE
I ISP I \/N

PRINTED ON REOUEO PAPER

BP-229(13)
APRIL 1982

Case 3:19-mj-01000-SCC Document 1-1 Filed 05/15/19 Page 1 of 3

AFFIDAVIT IN SUPPORT OF COMPLAINT
I, Gerald Cavis, hereinafter referred to as your affiant, a Special Agent of the Federal
Bureau of Investigation (FBI), being duly sworn, state and depose as follows:

BACKGROUND
1. Gerald Cavis (Affiant) has been a Special Agent with the Federal Bureau of Investigation
(FBI) since 2016 and is currently assigned to the Counterterrorism Squad of the San Juan
Division. As a Special Agent with the FBI, the affiant has participated in a wide range of
both complex criminal and national security investigations as the primary investigator or in
a subsidiary role in both the United States and internationally. The affiant is familiar with
the procedures, activities, and investigative techniques associated with conducting federal
investigations. Prior to working for the FBI the affiant served for nine years as a Detective
with the Orange County Sheriffs Office in Orlando, Florida in such assignments as
Narcotics, Violent Crime and the FBI Joint Terrorism Task Force. The affiant is "an
investigative or law enforcement officer of the United States" within the meaning of Section
2510 (7) of Title 18, United States Code. Your affiant is therefore, an officer of the United
States who is empowered by law to conduct investigations of, and to make arrests for, the
offenses enumerated in Title 18, United States Code.
2. The information contained in this affidavit was obtained from the investigation conducted
by your affiant in addition to information provided to your affiant by other local and federal
law enforcement agents. Because this affidavit is made for the limited purpose of
establishing probable cause for the arrest warrant, your affiant has not recited each and
every fact known to him as a result of this investigation.

RELEVANT FACTUAL ALLEGATIONS
3. Adam Paul Strege (Strege) is documented as making hundreds of threatening and harassing
telephone calls to state, local and federal entities with a focus on the Social Security
Administration (SS A). During these calls Strege commonly rants about his families
involvement in the 9/11 attacks on the World Trade Center, makes demands in reference to
his social security benefits, makes various statements about the use of human body parts in
1

Case 3:19-mj-01000-SCC Document 1-1 Filed 05/15/19 Page 2 of 3

nuclear reactors, and discusses kidnap and murder plots and various lawsuits against the
United States.
4. On May 6, 2019 the SSA office in Grand Rapids, Michigan received a bomb threat via a
telephone call. An SSA employee stated that a person whom the employee was able to
identify as Adam Strege called the office and stated "bomb the place, there is a bomb under
the building and it was placed there by the builders.” The SSA employee asked which
building Strege was referring to, and Strege replied that it was “the building, your building”
and instructed her to check the basements and tunnel. Strege also stated he had “put his
semen on a rocket ship and launched into space” and his mother was involved with the 9/11
terrorist attacks and the “mother of all bombs is in Macalister, Oklahoma".
5. Strege’s threats prompted a response from the Federal Protective Service and the Grand
Rapids Police Department who conducted a check for explosive devices utilizing Explosive
Detection Canine Units at multiple facilities.
6. On May 15, 2019 FBI special agents met with Strege in Carolina, Puerto Rico. Strege was
read his Miranda Rights directly from ?n FBI-issued Miranda Card. Strege stated he fVd'y
understood his Miranda Rights and agreed to speak with the agents at that time without the
presence of an attorney.
7. Strege was asked what his current telephone number was and he initially stated he did not
know it. When Special Agent Cavis told Strege that he did not believe him and that he did
know his telephone number, Strege replied his current number was “(787)-317-3120.”
Strege stated the number was that of his cellular telephone. Strege stated that it was his only
telephone, that he was the only user of the telephone and has never let anyone else use it.
Strege stated he got the telephone when he arrived in Puerto Rico on approximately
February 28, 2019 and it has been in his control the entire time.
8. Strege was asked if he remembered making a telephone call to a government agency .where
he told them there was a bomb in their building. Strege stated he did make the photie call
and he builds courthouses and government buildings with explosive experts. Strege was
asked if he actually put a bomb in the basement of a building and he stated he did not.
Strege was asked if he knew it scared people and caused fear when he told people there
could be a bomb in their building and he replied it definitely should.

H7
2

Case 3:19-mj-01000-SCC Document 1-1 Filed 05/15/19 Page 3 of 3

9. When Strege was asked why. he made the threats he stated they took his driver’s license and
he just wanted a driver’s license back in the United States.
10. Strege acknowledged that he made the phone call to the Grand Rapids, Michigan SSA office
from Puerto Rico.
CONCLUSION
11. Based on the information above, your affiant submits that there is probable cause to charge
Adam Strege with a violation of Title 18, United States Code, Section 844(e).

I hereby declare, under penalty of perjury, that the foregoing is true and correct to the best of my
knowledge.
f

SpegipikAgent Gerald'Cavrs---Federal Bureau of Investigation

Subscribed and sworn before me orvthe 15th day of May, 2019.

__

6M

ilvia Carreno-Coil
Inited States Magistrate Judge

U-2

3

/,• -

Case 3:14-cv-04381-JST Document 15 Filed 12/08/14 Page 37 of 43
Casel:14-cv-04381-NJV Documentl-1 Filed09/29/14 Pagel6of23

Social Security Request

UNITED STATES OF AMERICA FEDERAL COURT HOUSE
ALFRED FEDERAL DENVER COURT
Court Case # 13-:cv-01947
Adam Paul Strege
vs.

Mcdonald's, Wells Fargo Dale Strege Jan Deutchman, Trivis.inc

(566) In Propria Persona“Without Prejudice UCC 1-308,”
Signed buy

Adam Paul Strege 9/11/2013

9/18/2013 Adam Strege goes to the Euricka SSI ofice with sign saying big
leters Social Security Adjuncation rifext to a Open door Adam walked into
the Security Gaurd pushed me and tried to shut the Door Adam was .
enformed social security was the next door upon the Right. The next ofice
Building to the Left of Social Secuity Aduncation A1 Check Cashing." Do
they.mean Social Security cooking disabled people with A1 Steak sauce.
The Social Security Adjuncation Gard pushed me and I hit my Head hard
faling Backwards than Adam went to the Eurika Federal Court house and
talked to Federal oficers and reported the Social Security gard Pushed me
and i fell And the Feds gave me a papflet fore Legal Aid I Lost.
Adam then Went to the Marina and Parked next to the Bathroom then the
Doors were locked and said bathroom at the- Boat ramp Marina Ofice Adam
went there and a Violent Deminstration at the Eurika Marina Center a Man
Calling the hornless KKK and yelling many KKK slang Words Adam went
to the side entrance and asked to use the bathroom they woodent let me so I
mesed myself The Last time i was in Eurika I parked buy the closed Library
and couldent find a bathroom one has to buy somthing in eurika to use

\

CASE 0.09-CV-01350-DWF-RLE Document 46 Filed 11/06/09 Page 7 of 12
■ThcJjg £*•

D<? „ a

name of the defendant who violated that right; (3) exactly what that
defendant did or failed to do; (4) how the action or inaction of that
defendant is connected to the violation of Plaintiff’s rights; (5) what
specific injury Plaintiff suffered because of that defendant’s conduct- and
diversity^ ** ^ ^COUrtS jurisdiction is either federai question or

:

i

t

I
'

(Id at 7 (emphasis in original).)4
In dismissing Strege’s second amended complaint for failing to comply with those
requirements, the Hawaiian court understood Strege to have alleged that the defendants

I

were jointly responsible for
(1) a conspiracy to conceal the murders of Representative Bob Nakasone
and Congressman Paul Wellstone,...; (2) the September 11th terrorist
attacks,. .; (3) embezzlement and/or illegal profiting from the September
11 th attacks and/or the Iraq or Afghanistan wars,...; (4) a “conspiracy to
commit Genocide on the American people” by robbing them of their
pensions, retirement funds, and life insurance,...; (5) causing Plaintiff’s
brain injury,...; (6) a conspiracy to murder Plaintiff,...; (7) firing Plaintiff
and/or denying him employment and/or benefits due to his religion,
disability, and/or his knowledge of the various conspiracies outlined in the
econd Amended Complaint,(8) a conspiracy to give Group Builders
all of the business on Maui,...; and (9) the Afghanistan and Iraq wars.

i

i

(No. 09-CV-249, Doc. No. 31 at 4-5.)
Here, Strege’s Complaint likewise asserts the following “claims”: (1) a conspiracy
to conceal the murders of Rep. Nakasone and Sen. Wellstone; (2) the Holocaust and other
wrongful actions of the Nazis; (3) the September 11,2001 terrorist attacks; (4) the
impending rise of the Fourth Reich; (5) the embezzlement of funds from the wars in Iraq

(Id at 8 )

^ C0Ult alS° imP°Sed additional requirements for any amended pleadings.
7

a-7

